     COMMONWEALTH OF MASSACHUSETTS
        DEPARTMENT OF LABOR AND
        WORKFORCE DEVELOPMENT




                      AUDIT OF

  DIRECT AND INDIRECT COSTS CHARGED TO

      U.S. DEPARTMENT OF LABOR GRANTS

                DURING THE PERIOD

       JULY 1, 1998 THROUGH JUNE 30, 2001




                            Final Report No: 03-02-001-03-315

                            Date Issued:     March 29, 2002




              TICHENOR & ASSOCIATES, LLP
CERTIFIED PUBLIC ACCOUNTANTS AND M ANAGEMENT CONSULTANTS
     COMMONWEALTH OF MASSACHUSETTS
        DEPARTMENT OF LABOR AND
        WORKFORCE DEVELOPMENT




                AUDIT OF DIRECT
       AND INDIRECT COSTS CHARGED TO
      U.S. DEPARTMENT OF LABOR GRANTS
              DURING THE PERIOD
       JULY 1, 1998 THROUGH JUNE 30, 2001




  This audit report was prepared by Tichenor & Associates,
  LLP, under contract to the U.S. Department of Labor,
  Office of Inspector General, and, by acceptance, it becomes
  a report of the Office of Inspector General.


                  _____________________________________
                  Acting Deputy Inspector General For Audit
                  U.S. Department of Labor




                               Final Report No: 03-02-001-03-315

                               Date Issued:




              TICHENOR & ASSOCIATES, LLP
CERTIFIED PUBLIC ACCOUNTANTS AND M ANAGEMENT CONSULTANTS
                                                TABLE OF CONTENTS



ACRONYMS AND GLOSSARY ............................................................................................ ii


EXECUTIVE SUMMARY ...................................................................................................... 1


INTRODUCTION ..................................................................................................................... 3

      Background .......................................................................................................................... 3

      Objectives and Scope ........................................................................................................... 3

      Federal Cost Reimbursement Principles .............................................................................. 4


FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS ........................................... 8

1.    Unsupported Departmental Salaries and Associated Costs Charged as
      Indirect Costs to DOL Grants Administered by DET and DOS .......................................... 9

2.    Unsupported Departmental Salaries and Associated Costs Charged as
      Direct Costs to JTPA and WIA Programs Administered by the
      Commonwealth Corporation .............................................................................................. 10


AUDITEE’S RESPONSE......................................................................................................... 13




                                                                      i
                    ACRONYMS AND GLOSSARY


CFR    Code of Federal Regulations

ES     Employment Services

DET    DLWD’s Division of Employment and Training

DLWD   Massachusetts Department of Labor and Workforce Development

DOL    U.S. Department of Labor

DOS    DLWD’s Division of Occupational Safety

JTPA   Job Training Partnership Act

OIG    U.S. Department of Labor, Office of Inspector General

OMB    U.S. Office of Management and Budget

SFY    State Fiscal Year

UI     Unemployment Insurance

WIA    Workforce Investment Act




                                      ii
                                       GLOSSARY

Direct Cost:       A cost that can be identified specifically with a particular cost objective,
                   e.g., the DOL Unemployment Insurance Program.

Indirect Cost:     A cost which cannot be identified with a single, final cost objective, but is
                   identified with two or more final cost objectives, one or more of which
                   benefits Federal programs. Such costs are combined into groupings or
                   pools for distribution to benefiting final cost objectives. Indirect cost
                   pools should be distributed to benefited cost objectives on bases that will
                   produce an equitable result in consideration of relative benefits derived.

Questioned Cost:   A cost that is questioned because of:

                   (a) an alleged violation of a provision of a law, regulation, contract, grant,
                   cooperative agreement, or other agreement or document governing the
                   expenditure of funds; or

                   (b) at the time of the audit, such costs are not supported by adequate
                   documentation; or

                   (c) the expenditure of funds for the intended purpose is unnecessary or
                   unreasonable.

Allowable Cost:    To be allowable under Federal awards, costs must, among other things,
                   meet the following general criteria: (1) be reasonable and necessary for
                   proper and efficient performance and administration of Federal awards;
                   (2) be allocable to Federal awards in accordance with OMB Circular
                   A-87; (3) be consistent with policies, regulations, and procedures that
                   apply uniformly to both Federal awards and other activities of the
                   governmental unit; (4) be accorded consistent treatment (e.g., a cost may
                   not be assigned to a Federal award as a direct cost if any other cost
                   incurred for the same purpose in like circumstances has been allocated to
                   the Federal award as an indirect cost); (5) except as otherwise provided for
                   in OMB Circular A-87, be determined in accordance with generally
                   accepted accounting principles; (6) be the net of all applicable credits; and
                   finally, (7) be adequately documented.

Allocable Cost:    A cost is allocable to a particular cost objective if the goods or services
                   involved are chargeable or assignable to such cost objective in accordance
                   with “relative benefits received.”




                                             iii
                                 EXECUTIVE SUMMARY


Tichenor & Associates, LLP, Certified Public Accountants and Management Consultants, under
contract to the U.S. Department of Labor (DOL), Office of Inspector General (OIG), conducted
an audit of direct and indirect costs charged to DOL grants by the Commonwealth of
Massachusetts’ Department of Labor and Workforce Deve lopment (DLWD).

The audit focused on: (1) indirect cost rate agreements between DOL and DLWD’s Division of
Employment and Training (DET) and Division of Occupational Safety (DOS); and (2) direct
charges made by DLWD to Job Training Partnership Act (JTPA) and Workforce Investment Act
(WIA) grant programs operated by the Commonwealth Corporation. The audit covered costs
charged to these programs for State fiscal years (SFYs) 1999, 2000, and 2001.

Our audit disclosed that about $1.34 million of the direct and indirect costs claimed and
recovered by DLWD on DOL grants for SFYs 1999, 2000, and 2001, were unallowable because
they were not “adequately documented,” and were based on estimated rather than actual costs,
contrary to Federal cost principles. Specifically, DLWD personnel, whose salary costs were
charged both as direct and indirect costs to DOL grants, had failed to prepare the required
personnel activity (time distribution) reports, and their salaries were charged directly to projects
or to an ind irect cost pool based on pre-established budget estimates. Accordingly, we have
questioned a total of $1.34 million in DLWD direct and indirect charges to DOL grants.

OMB Circular A-87, Attachment A, section C, states that “To be allowable under Federal
awards, costs must . . . Be adequately documented.” In addition, OMB Circular A-87,
Attachment B, paragraph 11.h lists very specific documentation criteria which must be met in
order to support salaries and wages, whether treated as direct or indirect costs (including all
directly-associated costs such as fringe benefits). When employees work on more than one cost
objective and/or indirect cost activity, the salary costs must be supported by personnel activity
reports which must reflect an after-the- fact distribution of the actual activity of each employee.
Further, the Circular states that budget estimates do not qualify as support for charges to Federal
awards.

We recommend that DLWD refund to DOL the questioned indirect and direct costs and adjust its
billings to DOL for SFY 2002 to preclude further overrecoveries of unsupported and
unallowable costs. Additionally, DLWD must develop and implement a time distribution system
for all Executive Office personnel who are involved in charging both direct and indirect costs to
DOL grants. Finally, we recommend that DLWD develop and implement written internal
control policies and procedures, required by 29 CFR § 97.20(b)(5), to ensure that all direct and
indirect costs charged to DOL grants fully comply with the reasonableness, allocability, and
allowability criteria mandated by OMB Circular A-87.




                                                  1
Auditee’s Response

In its response to our draft report, DLWD conceded that it had not maintained personnel activity
reports to support its direct and indirect costs charged to DOL grants in SFYs 1999, 2000 and
2001, as required by OMB Circular A-87, because it was not aware of this requirement prior to
our audit. However, DLWD believes that the costs questioned were reasonable, and would be
working with DOL’s Re gional Director and his staff to confirm with them that these costs were
“reasonable.”

DLWD indicated that it planned to develop for future use a time distribution system for
Executive Office personnel who are involved in charging direct and indirect costs to DOL grants.
In addition, it plans to develop internal control policies to ensure that all direct and indirect costs
charged to DOL grants comply with OMB Circular A-87.

Auditor’s Conclusion

DLWD has readily admitted, both in our exit conference and in its written response, that it had
not maintained the required personnel activity reports mandated by OMB Circular A-87 which,
in turn, must meet very strict documentation requirements in order for personnel services costs
(and all directly associated costs) to be allowable. The fact that DLWD may not have been
aware of these requirements does not make the questioned costs allowable, or otherwise
ameliorate the findings. The Federal cost principles are very clear – to be allowable, costs must
be “adequately documented.” In the case of personnel services costs, OMB Circular A-87 spells
out very detailed criteria that must be met in order for such costs to considered “adequately
documented.” Therefore, we are making no changes in this finding or its related conclusions and
recommendations.




                                                   2
                                    INTRODUCTION


BACKGROUND

DOL’s Employment Services (ES) and Unemployment Insurance (UI) grants are administered
by DLWD’s Division of Employment and Training (DET). Occupational safety grants are
administered by DLWD’s Division of Occupational Safety (DOS). And, finally, the Job
Training Partnership Act (JTPA) and the Workforce Investment Act (WIA) grants are
administered by the Commonwealth Corporation, a quasi-public agency, under the direct
authority of DLWD.

Expenditures on DOL grants administered by DLWD totaled $177,481,475 for SFYs 1999,
2000, and 2001.

OBJECTIVES AND SCOPE

The initial objective of this engagement was to conduct a “risk assessment” to determine whether
direct and indirect costs charged to the UI program for SFY 2000 were reasonable, allocable, and
otherwise allowable under the Federal cost principles set forth in U.S. Office of Management and
Budget (OMB) Circular A-87 — Cost Principles for State, Local and Indian Tribal
Governments, and the A-87 implementation guidelines set forth in ASMB C-10 — Cost
Principles and Procedures for Developing Cost Allocation Plans and Indirect Cost Rates for
Agreements with the Federal Government. The engagement objective further provided that,
depend ing on the results of our “risk assessment,” the scope could be expanded to include
additional years and other DOL grant programs.

Based on the results of our “risk assessment,” and in consultation with the DOL Task Monitor on
this engagement, we expanded our scope to include additional years and other DOL grants. The
audit focused on: (1) the indirect cost rate agreements between DOL and DLWD’s DET and
DOS; and (2) the direct charges made by DLWD to JTPA and WIA grant programs operated by
the Commonwealth Corporation. The audit covered costs charged to these programs for SFYs
1999, 2000, and 2001.

The audit fieldwork was conducted from August 29, 2001, through September 11, 2001. A
Statement of Facts summarizing the results of the audit was submitted to DLWD and Office of
the Comptroller officials on September 10, 2001; however, our scheduled exit conference was
not held because of the September 11 terrorist incidents. Subsequently, DLWD and Office of the
Comptroller officials informed us that they preferred to not comment on the Statement of Facts,
but would reserve their formal comments for our draft report.

This engagement was performed in accordance with auditing standards established by the
American Institute of Certified Public Accountants, and with the Government Auditing
Standards issued by the Comptroller General of the United States, except that the scope of our


                                                3
engagement did not include expressing a formal written opinion on the reasonableness and
allowability of the total claimed costs by DLWD, its system of internal controls, or its
compliance with laws and regulations applicable to all Federal grants/contracts.

FEDERAL COST REIMBURSEMENT PRINCIPLES

The DOL grants provide for payment of allowable, reasonable, and allocable incurred costs as
determined by OMB Circular A-87. In addition to Circular A-87, the grant award and the
“Common Rule” governing grants to state and local governments contain a number of
compliance requirements which must be met in order for costs to be allowable. Among other
things, the costs must be in accordance with generally accepted accounting principles, and the
grant accounting records must be supported by adequate source documentation such as canceled
checks, paid bills, payroll records, time and attendance records, contract, and subcontract award
documents, etc.

General Principles for Determining Allowable Costs

Attachment A to OMB Circular A-87 establishes general principles for determining allowable
costs, both direct and indirect, incurred by state, local, and Indian tribal governments under
grants, cost-reimbursement contracts, and other agreements with Federal agencies. The
principles are established for the purpose of determining the reasonableness, allowability, and
allocability of costs claimed, and are not intended to dictate the extent of Federal or
contractor/grantee participation in the financing of a particular program or project. Accordingly,
they describe what may be reimbursed or recovered under a Federal award. The principles are
designed to ensure that the Federal Government bears its fair share of costs incurred, except
where specifically restricted or prohibited by law.

Under OMB Circular A-87, Attachment A, Section C, costs charged to Federal programs must
meet the tests of allowability, reasonableness, and allocability. To be allowable, costs must meet
the following general criteria:

   a. Be necessary and reasonable for proper and efficient performance and
       administration of Federal awards.
    b. Be allocable to Federal awards under the Circular (e.g., on the basis of relative
       benefits received).
   c. Be authorized (or not prohibited) under state or local laws and regulations.
   d. Conform to any limitations or exclusions set forth in these principles, Federal laws,
       the terms and conditions of the Federal award, or any other governing regulations
       as to types and/or amounts of cost items.
   e. Be consistent with policies, regulations, and procedures that apply uniformly to
       both Federal awards and other activities/programs of the governmental unit.
   f. Be accorded consistent treatment. A cost may not be assigned to a Federal award
       as a direct cost if any other cost incurred for the same purpose in like circumstances
       has been allocated to the Federal award as an indirect cost.




                                                4
Similarly, a cost may not be allocated to a Federal award as an indirect cost if any other
cost incurred for the same purpose in like circumstances has been charged to the award as a
direct cost.
    g. Except as otherwise provided for in the Circular, costs must be determined in
        accordance with generally accepted accounting principles.
    h. Not be included as a cost or used to meet cost sharing or matching requirements of
        any other Federal award in either the current or a prior period, except as specifically
        provided by Federal law or regulation.
    i. Be the net of all applicable credits.
    j. Be adequately documented.

A cost may be considered reasonable if, in its nature and amount, it does not exceed that which
would be incurred by a prudent person under the circumstances prevailing at the time the
decision was made to incur the cost. The question of reasonableness is particularly important
when governmental units or components are predominantly federally funded. In determining
reasonableness of a given cost, consideration will be given to:

   a. Whether the cost is of a type generally recognized as ordinary and necessary for the
      operation of the governmental unit or the performance of the Federal award.
   b. The restraints or requirements imposed by such factors as: sound business
      practices; arms- length bargaining; Federal, State, and other laws and regulations;
      and terms and conditions of the Federal award.
   c. Market prices for comparable goods or services.
   d. Whether the individuals concerned acted with prudence in the circumstances
      considering their responsibilities to the governmental unit, its employees, the public
      at large, and the Federal Government.
   e. Significant deviations from the established practices of the governmental unit
      which may unjustifiably increase the Federal award’s cost.

The basic guidelines for costs to be allocable are briefly summarized, as follows:

   a. A cost is allocable to a particular cost objective if the goods or services involved
      are chargeable or assignable to such cost objective in accordance with the “relative
      benefits received.”
   b. All activities which benefit from the governmental unit’s indirect costs, including
      unallowable activities and services donated to the governmental unit by third
      parties, will receive an appropriate allocation of the indirect costs.
   c. Any costs allocable to a particular Federal award or cost objective under the
      principles provided for in this Circular may not be charged to other Federal awards
      to overcome fund deficiencies, to avoid restrictions imposed by law or terms of the
      Federal awards, or for other reasons. However, this prohibition would not preclude
      governmental units from shifting costs that are allowable under two or more awards
      in accordance with existing program agreements.
   d. Where an accumulation of indirect costs will ultimately result in charges to a
      Federal award, a [approved] cost allocation plan [and/or an approved indirect cost
      rate agreement] will be required as described in Attachments C, D and E.



                                                  5
OMB Circular A-87 mandates that the U.S. Department of Health and Human Services (HHS)
issue implementing guidelines for A-87 on behalf of the entire Federal Government. HHS has
developed and issued these guidelines in ASMB C10, Cost Principles and Procedures for
Developing Cost Allocation Plans and Indirect Cost Rates for Agreements with the Federal
Government . These additional guidelines include discussions of the requirements for preparing
and submitting cost allocation plans, public assistance cost allocation plans, and state and local
indirect cost rate proposals. In addition, these guidelines address types of indirect cost rates,
acceptable methodologies for indirect cost rate determinations, allocation bases, special rates, the
submission and documentation of indirect cost rate proposals, the review/negotiation/approval of
indirect cost rates, etc.

Specific Principles for Determining Allowability of Selected Items of Cost

Attachment B to OMB Circular A-87 provides specific principles to be applied in determining
the allowability or unallowability of selected items of costs. These principles apply whether a
cost is treated as direct or indirect. For the purposes of this audit, the single most important
principle in this section of A-87 is Attachment B, paragraph 11.h., Support for salaries and
wages, which states, among other things:

      (3) Where employees are expected to work solely on a single Federal award or cost
      objective, charges for their salaries and wages will be supported by periodic
      certifications that the employees worked solely on that program for the period
      covered by the certification. These certifications will be prepared at least semi-
      annually and will be signed by the employee or supervisory official having first hand
      knowledge of the work performed by the employee.

      (4) Where employees work on multiple activities or cost objectives, a distribution of
      their salaries or wages will be supported by personnel activity reports or equivalent
      documentation. Such documentary support will be required where employees work
      on:

          (a) More than one Federal award,
          (b) A Federal award and a non-Federal award,
          (c) An indirect cost activity and a direct cost activity,
          (d) Two or more indirect activities which are allocated using
              different allocation bases, or
          (e) An unallowable activity and a direct or indirect cost activity.

      (5) Personnel activity reports or equivalent documentation must meet the following
      standards:

          (a) They must reflect an after-the- fact distribution of the actual activity
              of each employee,
          (b) They must account for the total activity for which each employee is
              compensated,



                                                  6
(c) They must be prepared at least monthly and must coincide with one
    or more pay periods, and
(d) They must be signed by the employee.
(e) Budget estimates or other distribution percentages determined before
    the services are performed do not qualify as support for charges to
    Federal awards . . . .




                                     7
          FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS


Our audit disclosed that about $1.34 million of the direct and indirect costs claimed and
recovered by DLWD on DOL grants for SFYs 1999, 2000, and 2001, were unallowable because
they were not adequately documented. The claimed costs were based on estimated rather than
actual costs, contrary to Federal cost principles. Specifically, we found that certain DLWD
personnel, whose salary costs were charged both as direct and indirect costs to DOL grants, had
failed to prepare personnel activity (time distribution) reports required by OMB Circular A-87.
Further, the distribution of their salary costs and “directly associated” costs was charged directly
to projects or to an indirect cost pool based on budget estimates rather than actual time as
required by A-87.

Accordingly, we have questioned a total of $1.34 million in DLWD direct and indirect charges to
DOL grants in SFYs 1999, 2000, and 2001 because the costs were not supported as required by
OMB Circular A-87, as follows:

1.   Certain personnel within the DLWD Executive Office, who worked on both direct and
     indirect cost objectives, failed to maintain personnel activity reports showing the actual time
     spent on each of the cost objectives. Based on available data, we determined that about
     $944,430 in unsupported salaries and “directly-associated” non-salary costs were included in
     DLWD’s indirect cost pools for SFYs 1999, 2000, and 2001, of which $755,544 (or 80
     percent) were allocated to DOL grants administered by DLWD’s DET and DOS.

2.   In addition, a total of about $585,000 in unsupported salaries of the above DLWD Executive
     Office personnel, plus “directly-associated” non-salary costs, was also charged as direct
     costs to the DOL JTPA/WIA grants administered by the Commonwealth Corporation (a
     quasi-public corporation) which is under the general supervision of DLWD.

Further, we believe that DOL grants were also charged for unsupported/estimated costs during
SFY 2002 because the conditions disclosed by our audit had not changed as of the completion of
our fieldwork in September 2001.

The details of our findings are presented in the following pages.




                                                  8
FINDING 1.        Unsupported Departmental Salaries and Associated Costs Charged as
                  Indirect Costs to DOL Grants Administered by DET and DOS

Our audit disclosed that some of the departmental salary costs and “directly associated” non-
salary expenditures included in the DET and DOS indirect cost rate proposals were unallowable
because they were not adequately documented, and were based on estimated rather than actual
time spent on indirect functions. We determined that $755,544 of these unallowable indirect
costs were allocated to DOL grants.

As previously discussed in this report, the terms and conditions of DOL grants awarded to
DLWD require that it comply with the cost reimbursement principles set forth in OMB Circular
A-87. OMB Circular A-87, Attachment A, section C, states that “To be allowable under Federal
awards, costs must . . . . Be adequately documented.” In addition, OMB Circular A-87,
Attachment B, paragraph 11.h, lists very specific documentation criteria which must be met in
order to support salaries and wages, whether treated as direct or indirect costs (including all
directly-associated costs suc h as fringe benefits). When employees work on more than one cost
objective and/or indirect cost activity, the salary costs must be supported by personnel activity
reports which must reflect an after-the- fact distribution of the actual activity of each emp loyee.
Further, the Circular states that budget estimates do not qualify as support for charges to Federal
awards.

The DET and DOS indirect cost proposals for SFYs 1999 through 2001 included the following
DLWD Executive Office costs (based on actual 1997 costs), plus the non-salary expenditures
and Statewide allocated costs which are directly attributable to and accompany the salary and
wages.

            1997 DLWD Executive Office Salaries and Associated Indirect Costs

                       Salary and Wages                     $235,043
                       Non-salary Expenditures                88,395
                       Total Direct Costs                   $323,438
                       Statewide allocated Costs             201,245
                       Total Indirect Costs                 $524,683

The $524,683 was allocated to eight programs operated by DLWD, including the DOL grants
administered by DET and DOS. DET and DOS operate only DOL programs. We found that
DET programs were allocated 76.99 percent and the DOS programs were allocated 2.99 percent
of the above costs. Thus, the total costs charged against DOL- funded programs amounted to
about 80 percent of total departmental indirect costs.

We found that $140,458 of the $235,043 salaries and wages were applicable to those DLWD
officials whose salaries and wages were charged as both direct and indirect costs, but who failed
to prepare the required personnel activity reports to support the actual time spent on each of the
direct and indirect activities. DLWD officials told us that they were not aware of this
requirement. Instead, they simply estimated the amount of time to be charged directly to the


                                                   9
JTPA/WIA programs administered by the Commonwealth Corporation; the remainder of their
time was charged to the indirect cost pool. We confirmed that these “estimates” were not
periodically adjusted to reflect the actual effort. Likewise, the effort of the Director, DLWD,
was only charged against the indirect cost pool, although his responsibilities clearly required
some effort in managing the Commonwealth Corporation which administered the JTPA/WIA
programs. His efforts were also unsupported as he did not prepare the required personnel
activity reports.

Using the relationship between the unsupported salary expenditures of $140,458 to total salaries
of $235,752 (60 percent), we found that $314,810 per year ($524,683 x 60%) of DLWD’s
indirect costs were not adequately supported. Consequently, during the 3- year period of our
audit ending June 30, 2001, the DLWD cost pool for allocation to the eight programs contained
$944,430 of questioned costs. Since 80 percent of the costs in the DLWD indirect cost pool
were cha rged to DET and DOS programs, DOL grants were charged with $755,544 ($944,430 x
80%) in unsupported indirect costs.


FINDING 2.        Unsupported Departmental Salaries and Associated Costs Charged as
                  Direct Costs to JTPA and WIA Programs Administered by the
                  Commonwealth Corporation

As stated earlier, a portion of the salary and wages of certain officials of the DLWD Executive
Office were charged directly to JTPA and WIA programs, administered by the Commonwealth
Corporation, without being supported by personnel activity reports as required by OMB Circular
A-87. In addition, these costs were based on budget estimates rather than actual time spent. We
determined that the unsupported salaries of these officials, and all directly-associated costs,
charged to these programs totaled $585,000 in SFYs 1999 through 2001.

DLWD officials told us that they were unaware of the requirement of OMB Circular A-87
regarding the need for formal time distribution sheets. They said they believed it was more
beneficial to use the estimated charges, rather than having to resort to more complicated time
reporting systems. In addition, DLWD officials told us that, in their opinion, more accurate time
reporting would mean added charges against the JTPA and WIA grants.

This latter statement suggests that the amounts direct charged to the JTPA and WIA grants by
DLWD were not determined on the basis of “relative benefits received” as required by OMB
Circular A-87. Specifically, OMB Circular A-87, Attachment A, paragraph C.3.a states that “A
cost is allocable to a particular cost objective if the goods or services involved are chargeable or
assignable to such cost objective in accordance with relative benefits received.” [Underscoring
added.] The statement also tends to indicate that DLWD may be intentionally limiting the
amount of departmental overhead charged to the JTPA and WIA grants in order to stay within a
5-percent statutory limitation on the amount of State administrative costs which may charged to
these grants. As a result, departmental overhead costs properly allocable to the JTPA/WIA
grants in excess of the 5-percent statutory limitation (which would otherwise have to be paid for
with State funds) are being shifted to other DOL grants which are not subject to a statutory
limitation on the amount of State administrative costs for which DLWD may be reimbursed.


                                                 10
We believe the previous statement by DLWD officials tends to confirm that: (1) they do not have
an adequate working knowledge of some of the more critical cost principles set forth in OMB
Circular A-87; and/or (2) they may be trying to avoid having to use State funds to cover State
administrative costs in excess of the statutory limitation.


                                      * * * * * * * * *

Conclusions

For the 3-year period covered by our audit, we found that $1.34 million in unallowable salaries
and directly-associated costs were charged as direct and indirect costs to various DOL grants.
These costs are unallowable because certain department- level officials who charged their time to
both direct and indirect cost objectives failed to prepare personnel activity reports which meet
very specific and detailed documentation standards mandated by OMB Circular
A-87. In addition, these costs are also unallowable because they were based on “budget
estimates,” rather than the mandatory “after-the- fact distribution of the actual activity of each
employee.” [Note: We verified that these “estimates” were never adjusted to “actual” costs; in
fact, DLWD could not have made such an adjustment because there was no record of the actual
time spent on the various cost objectives.] Accordingly, we question the $1.34 million in
unallowable costs charged to DOL grants for the 3-year period ended June 30, 2001.

Recommendations:

We recommend that the Department of Labor:

1. Direct DLWD to refund $755,544 in unsupported indirect costs questioned in this report.

2. Direct DLWD to refund $585,000 in unsupported departmental salaries and associated costs
   charged as direct costs to JTPA and WIA programs.

3. Direct DLWD to adjust it billings to DOL for SFY 2002 direct and indirect costs to preclude
   further overrecoveries of unsupported and unallowable costs.

4. Direct DLWD to develop and implement a time-distribution system for all DLWD Executive
   Office personnel who are involved in charging both direct and indirect costs to DOL grants,
   which meet the criteria set forth in OMB Circular A-87, Attachment B, paragraph 11.h.

5. Direct DLWD to develop and implement written internal control policies and procedures to
   ensure that all direct and indirect costs charged to DOL grants fully comply with the
   reasonableness, allocability, and allowability criteria mandated by OMB Circular A-87.


                                      * * * * * * * * *




                                                11
Auditee’s Response

In its response dated March 20, 2002, the Director of DLWD stated, in part, that:

      The audit questions a total of $1.34 million of the direct and indirect costs claimed
      and recovered by DLWD on DOL grants for SFYs 1999, 2000, and 2001. I believe
      that these costs were “reasonable” and my staff and I will be working closely with
      USDOL’s Regional Director and his staff to confirm with them that these costs were
      “reasonable”.

      DLWD concedes that actual personnel activity reports showing the actual time spent
      on JTPA/WIA activities are not available. Prior to this audit, DLWD was unaware
      that personnel activity reports are required under the federal regulations for
      employees that are paid from multiple sources. However, we do maintain a weekly
      schedule (updated daily) that includes all WIA meetings, events etc. that are attended
      by DLWD staff. We also can produce fiscal reports indicating the number of fiscal
      transactions that have executed by DLWD fiscal staff. In addition, DLWD staff
      plays an intricate part in the production of the WEA Annual Report, WIA Policy and
      Informational Issuances; WIA contract negotiations and the State plan that is
      required under the grant.

      DLWD agrees to develop for use from this point forward a time distribution system
      for Executive Office personnel who are involved in charging direct and indirect costs
      to USDOL grants. DLWD also agrees to develop internal control policies and
      procedures to ensure that all direct and indirect costs charged to USDOL grants
      comply with OMB Circular A-87.

A copy of DLWD’s written response to a draft of this report is included in its entirety in an
appendix to this report.

Auditor’s Conclusion

DLWD readily admits that it did not maintain the required personnel activity reports mandated
by OMB Circular A-87 which, in turn, must meet very strict documentation requirements in
order for personnel services costs (and all directly associated costs) to be allowable. The fact
that DLWD may not have been aware of these requirements does not make the questioned costs
allowable, or otherwise ameliorate the findings. The Federal cost principles are very clear – to
be allowable, costs must be “adequately documented.” In the case of personnel services costs,
OMB Circular A-87 spells out very detailed criteria that must be met in order for such costs to
considered “adequately documented.”

In summary, DLWD’s written response did not provide any new or compelling evidence which
would warrant any change in these findings, or the related conclusions and recommendations.




                                                12
AUDITEE’S RESPONSE




        13
1
1
